2311 Douglas Street A - E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs

Psi. 1g23 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 21-144

SEATTLE’S UNION GOSPEL MISSION.
Petitioner,
v.
MATTHEW S. WOODS,
Respondent,

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), 1 certify that the BRIEF OF CITYGATE
NETWORK AS AMICUS CURIAE JN SUPPORT OF PETITIONER in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains

4414 words, excluding the parts that are exempted by Supreme Court Rule 33.1 (d), as needed.

Subscribed and sworn to before me this Ist day of September, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths,

aimee | Aonce, 0. Leno Onduao-h. Ob
te 9

My Comm. Exp, Soplamber 6, 2023
Notary Public Affiant

 

AE335
